                                    SOCIAL SECURITY

MEMORANDUM

Date:   September 17, 2002                                                  Refer To:

To:     Paul D. Barnes
        Regional Commissioner

From:   Inspector General

Subject: Financial-Related Audit of the Florida Department of Children and Families - District 6,
        an Organizational Representative Payee for the Social Security Administration
        (A-08-02-12007)

        Attached is a copy of our final report. Our objectives were to determine whether the
        Florida Department of Children and Families – District 6, an organizational
        representative payee for the Social Security Administration, (1) had effective safeguards
        over the receipt and disbursement of Social Security benefits and
        (2) ensured Social Security benefits were used and accounted for in accordance with
        the Social Security Administration’s policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                        James G. Huse, Jr.

        Attachment

        cc:
        JoEllen Felice
        Fritz Streckewald
        Candace Skurnik
        Barbara Luke
            OFFICE OF
     THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


     FINANCIAL-RELATED AUDIT OF THE
  FLORIDA DEPARTMENT OF CHILDREN AND
 FAMILIES - DISTRICT 6, AN ORGANIZATIONAL
     REPRESENTATIVE PAYEE FOR THE
    SOCIAL SECURITY ADMINISTRATION


      September 2002    A-08-02-12007




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE

Our objectives were to determine whether the Florida Department of Children and
Families-District 6 (FDCF), an organizational representative payee (Rep Payee) for the
Social Security Administration (SSA), (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with SSA policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint Rep Payees to receive and manage these beneficiaries’1 payments. A Rep
Payee may be an individual or an organization. SSA selects Rep Payees for Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental Security
Income (SSI) recipients when representative payments would serve the individual’s
interests.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

•   using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•   conserving and investing benefits not needed to meet the individual's current needs;

•   maintaining accounting records of how the benefits are received and used;

•   reporting events to SSA that may affect the individual's entitlement or benefit
    payment amount;

•   reporting any changes in circumstances that would affect their performance as a
    Rep Payee; and

•   providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent and invested.

The FDCF is a State social agency that provides adoption, foster care, and protective
services to children who live in a foster care home, a group home, or an institution for


1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income (SSI) recipients. We make a distinction only
when we refer to beneficiaries receiving just SSI payments.


Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)                            i
six counties in central Florida. FDCF served as Rep Payee for 451 beneficiaries during
our audit period.

RESULTS OF REVIEW
We concluded FDCF generally (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with SSA’s policies and procedures. However,
we could not determine whether the Rep Payee properly reported to SSA how benefits
were used because SSA could not locate most of the RPRs we requested (see Other
Matter section of this report). In addition, we identified the following areas where FDCF
could improve its performance as a Rep Payee.

•   FDCF did not report to SSA that 40 SSI recipients had monthly resources over the
    $2,000 SSI resource limit, resulting in $135,717 in overpayments.

•   FDCF did not promptly return $20,922 in conserved funds for five individuals who
    were no longer in its care, withholding the funds for an average of 8 months.

•   Client Trust Funds were at risk because the checking account title inadequately
    identified the fiduciary relationship between FDCF and the beneficiaries.

Finally, we determined that SSA’s Representative Payee System (RPS) contained
inaccurate and incomplete information regarding SSA beneficiaries assigned to FDCF.

CONCLUSIONS AND RECOMMENDATIONS
Generally, FDCF met its responsibilities. However, FDCF needs to strengthen its
controls and procedures to reduce the potential for erroneous payments and loss of
beneficiary funds.

We recommend that SSA:

•   Direct FDCF to return funds to SSA for recipients who were ineligible for SSI
    because their resources exceeded the SSI limit.

•   Re-emphasize to FDCF the procedures for notifying SSA when events occur that
    affect the eligibility of individuals in its care.

•   Direct FDCF to establish controls to determine when individuals no longer in its care
    have conserved funds and ensure they are returned to SSA in a timely manner.

•   Direct FDCF to return conserved funds of beneficiaries no longer in its care to the
    appropriate responsible party.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)        ii
•   Direct FDCF to modify the Client Trust Fund checking account title to specifically
    identify the fiduciary relationship between it and the beneficiaries.

•   Correct the RPS information and implement controls or review procedures to prevent
    future occurrences.

AGENCY COMMENTS
SSA concurred with our recommendations. The Agency stated it is pleased with the
Office of the Inspector General’s overall conclusion that FDCF generally (1) has
effective safeguards over the receipt and disbursement of SSA and SSI benefits and
(2) ensured SSA and SSI benefit payments were used and accounted for in accordance
with SSA’s policies and procedures. SSA also stated it would address the areas
requiring corrective action or reminders when case-specific information is provided.

Although SSA concurred with Recommendation 5, it expressed concern that our
suggested bank account title precludes income other than SSA benefits from being
deposited into the account. The full text of SSA’s comments is included in Appendix B.

REP PAYEE COMMENTS
The Rep Payee responded it has strengthened its controls and procedures to reduce
the potential for erroneous payments and loss of beneficiary funds. Regarding
Recommendation 1, FDCF responded that, as of June 30, 2002, it had returned
$104,746.25 to SSA and requested appropriate waivers for those clients with balances
less than the overpayment amount. To address Recommendation 5, FDCF stated it
changed the bank account title to our suggested title. The full text of the Rep Payee’s
comments is included in Appendix C.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We believe SSA’s and the Rep Payee’s responses and planned actions adequately
address our recommendations.

Regarding SSA’s response to Recommendation 5, we do not believe our suggested title
precludes income other than SSA benefits from being deposited into the account. Our
intent was to ensure that FDCF modify the account title to specifically identify the
fiduciary relationship between it and the beneficiaries. As such, we continue to believe
our suggested title would assist FDIC in determining ownership interest in the account
in the event of a bank failure.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)      iii
                                                                     Table of Contents
                                                                                                                   Page

INTRODUCTION ............................................................................................................ 1

RESULTS OF REVIEW ................................................................................................. 4

   Excess Resources Resulted in SSI Overpayments ..................................................... 4

   FDCF Did Not Promptly Return Conserved Funds ...................................................... 5

   Client Trust Funds Were at Risk ................................................................................ 5

   Representative Payee System Was Not Accurate or Complete .................................. 6

CONCLUSIONS AND RECOMMENDATIONS............................................................... 7

OTHER MATTER............................................................................................................ 9

APPENDICES

APPENDIX A - Sampling Methodology and Results

APPENDIX B - Agency Comments

APPENDIX C - Representative Payee's Comments

APPENDIX D - OIG Contacts and Staff Acknowledgments




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                                                                               Acronyms
FDCF                Florida Department of Children and Families

FDIC                Federal Deposit Insurance Corporation

MBR                 Master Beneficiary Record

OASDI               Old-Age, Survivors and Disability Insurance

POMS                Program Operations Manual System

Rep Payee           Representative Payee

RPS                 Representative Payee System

RPR                 Representative Payee Report

SSA                 Social Security Administration

SSI                 Supplemental Security Income

SSR                 Supplemental Security Record




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                                                                           Introduction
OBJECTIVE
Our objectives were to determine whether the Florida Department of Children and
Families-District 6 (FDCF), an organizational representative payee (Rep Payee) for the
Social Security Administration (SSA), (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with SSA policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint Rep Payees to receive and manage these beneficiaries’ and recipients’
benefit payments.1 A Rep Payee may be an individual or an organization. SSA selects
Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries or
Supplemental Security Income (SSI) recipients when representative payments would
serve the individual’s interests.

REPRESENTATIVE PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

•     using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•     conserving and investing benefits not needed to meet the individual's current needs;

•     maintaining accounting records of how the benefits are received and used;

•     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

•     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.2



1
    42 U.S.C. §§ 405(j), 1383(a)(2).
2
    Id.; 20 C.F.R., part 404, subpart U, and part 416, subpart F.


Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)         1
About 7 million individuals have Rep Payees—approximately 4.4 million are OASDI
beneficiaries, 2 million are SSI recipients, and 600,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.

                                                             Number                    Number of
                Type of Rep Payee                               of                     Individuals
                                                            Rep Payees                   Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                        4,949,000                6,160,000
 Organizational Payees: State Institutions,
 Local Governments and Others                                     44,150                 759,000
 Organizational Payees: Fee-for-Service                              850                  81,000
 TOTAL                                                       4,994,000                 7,000,000


FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES - DISTRICT 6

FDCF is a State social agency that provides adoption, foster care, and protective
services to children who live in a foster care home, a group home, or an institution for
six counties in central Florida. FDCF obtains custody of these children via a Court
Order on Placement in Shelter Care. Once the Court establishes custody, FDCF serves
as Rep Payee for the children receiving monthly payments under SSA’s OASDI and/or
SSI programs. As Rep Payee, FDCF (1) applies the appropriate amounts to room and
board costs and (2) maintains a Client Trust Fund checking account to manage funds
for the childrens’ personal expenses.

SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2000 through April 30, 2001. To accomplish our
objectives, we:

•   Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
    pertaining to Rep Payees.

•   Contacted SSA regional and field office staff to obtain background information about
    the Rep Payee’s performance.

•   Obtained from SSA’s Representative Payee System (RPS) and the Rep Payee a
    listing of individuals who were in the Rep Payee’s care and received SSA funds as of
    April 30, 2001 or who left the Rep Payee’s care after May 1, 2000.

•   Compared and reconciled the RPS and the Rep Payee’s listings to identify the
    population of SSA individuals who were in the Rep Payee’s care from
    May 1, 2000 through April 30, 2001.


Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)                 2
•   Reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.

•   Performed the following tests for each beneficiary and recipient.

    -   Compared and reconciled benefit amounts paid according to the Rep Payee’s
        records to benefit amounts paid according to SSA’s records.

    -   Reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf. We also determined
        whether SSA was due a refund for any overpaid benefits.

    -   Traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•   Interviewed a sample of the Rep Payee’s beneficiaries, personal guardians, or
    caregivers to determine whether their basic needs were being met.

•   Reviewed a sample of RPRs provided by SSA to determine whether the Rep Payee
    properly reported the use of benefits.

We performed our audit of FDCF in Tampa, Florida, between June 2001 and April 2002.
We conducted our audit in accordance with generally accepted government auditing
standards.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)   3
                                                          Results of Review
The Rep Payee accurately recorded benefits it received from SSA as well as expenses
incurred on behalf of the individuals under its care. We randomly sampled 50 of the 451
individuals who received benefits from May 2000 through April 2001. FDCF received
$171,298 in benefits for these 50 individuals. The Rep Payee maintained source
documents for the sample items, from which we determined the expenses were
reasonable and authentic. However, we could not determine whether the Rep Payee
properly reported to SSA how benefits were used because SSA could not locate most of
the RPRs we requested (see Other Matter section of this report). In addition, we
identified the following areas where FDCF could improve its performance as a Rep
Payee.

•     Excess resources resulted in SSI overpayments.

•     FDCF did not promptly return conserved funds.

•     Client Trust Funds were at risk.

Finally, we determined that SSA’s RPS was not accurate or complete.

Excess Resources Resulted in SSI Overpayments
FDCF did not promptly report to SSA that 40 (12 percent) of the 320 SSI recipients in
our population had conserved funds over the $2,000 SSI resource limit. As a result,
these individuals received $135,717 in overpayments from May 1, 2000 through
April 30, 2001. SSA policy states that, effective January 1, 1989, individuals with
countable resources exceeding $2,000 must use those excess resources to meet their
needs before they receive SSI payments. SSA makes eligibility determinations based
on resource amounts at the beginning of each month.3

FDCF was aware of the resource limit, and its accounting department provided
caseworkers a quarterly balance report to ensure they properly managed recipients’
conserved funds balances in the Client Trust Fund. Additionally, based on our review,
we determined FDCF reported excess funds on some annual RPRs and returned
overpayments to SSA. We could not determine whether FDCF reported all excess
resources on the applicable RPRs because SSA could not provide us the reports.
Since the determination of excess funds is made on a month-by-month basis, FDCF
should notify SSA of the excess resources for the months of occurrence and, if
necessary, use the excess funds for room and board expenses to avoid overpayment of
benefits. However, in these 40 cases, FDCF did not do so. Rather, it allowed
overpayments to continue for an average of 6 months per recipient.

3
    Program Operations Manual System (POMS), sections SI 01110.001 and SI 01110.003.



Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)    4
We identified the recipients with high conserved fund balances from FDCF’s
March 31, 2001 quarterly balance report. The overpayments for the 40 recipients
ranged from $60 to $7,240. The recipient with the $7,240 overpayment exceeded the
SSI resource limit at the beginning of our audit and was not eligible for SSI payments
during the audit period.

FDCF Did Not Promptly Return Conserved Funds

FDCF did not promptly return $20,922 in conserved funds for five individuals who were
no longer in its care, as shown in Table 1. SSA policy requires a Rep Payee to return
accumulated funds in the first payment or as soon as possible to the appropriate
responsible party (that is, SSA, a successor payee, or a beneficiary in direct payment)
after selection of the new payee.4 FDCF held these funds from 4 to 15 months, an
average of about 8 months per occurrence. As a result, the children could not use
these accumulated funds to purchase necessary or discretionary items.

                         Table 1. Untimely Return of Conserved Funds

     Reason Individuals Left              Amount of Conserved            Number of Months FDCF
            FDCF Care                           Funds                     Held Conserved Funds
    Adoption                                       $516                            15
    Incarceration                                15,110*                            8
    Turned 18                                     3,166                             7
    Adoption                                      1,065                             5
    Adoption                                      1,065                             4
       Total Funds                             $20,922
       Average Months                                                                  8
     * Conserved funds sent to SSA.

As of March 21, 2002, $516 remained in the Client Trust Fund checking account FDCF
maintained for one of the five individuals.

Client Trust Funds Were At Risk
The Federal Deposit Insurance Corporation (FDIC) insures bank deposits up to
$100,000 per account. FDIC provides additional coverage of up to $100,000 per
individual in collective bank accounts when properly titled to show the fiduciary
relationship between the account holder and its clients. FDIC recognizes an insurance
claim based on a fiduciary relationship only when the insured depository institution’s
account expressly discloses this relationship.5

4
    POMS, sections GN 00603.055 and GN 00603.070.
5
    12 C.F.R. § 330.5(a)(1) and (b)(1).



Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)         5
The checking account title for the Client Trust Fund did not specifically identify the
fiduciary relationship between FDCF and the beneficiaries. To ensure each
beneficiary’s account is covered by FDIC, FDCF should modify the current title of this
checking account (Florida Dept of Children and Families District 6 Client Trust Fund) to
a more specific title, such as FDCF Representative - Payee Trust of Social Security
Benefits for Current Clients. We believe a more specific title would assist FDIC in
determining ownership interest in an account in the event of a bank failure. Because
the Client Trust Fund account balance was $430,837 as of April 30, 2001, significant
funds are at risk.

Representative Payee System Was Not Accurate or Complete

The RPS information on FDCF was not always accurate and/or did not match
information found on the Master Beneficiary Record (MBR) and the Supplemental
Security Records (SSR).6 In response to the Omnibus Budget Reconciliation Act of
1990,7 SSA established the RPS, an on-line system for entering and retrieving
information about Rep Payees who receive OASDI benefits and SSI payments on
behalf of others. RPS includes general information about current and prior Rep Payees,
the number of beneficiaries/recipients for whom the applicant has applied or been
selected, misuse information, and a list of the beneficiaries/recipients in the Payee’s
care.

To identify the beneficiaries in FDCF’s care, we compared its beneficiary records to
SSA’s beneficiary records. We found the following circumstances for individuals under
FDCF’s care during our audit period.

•     RPS listed a different Rep Payee for five individuals actually assigned to FDCF.

•     For five other individuals, RPS did not list the assigned Rep Payee and other
      information, such as type of benefit and bank deposit information. We could not
      locate any beneficiary information in RPS for one of these individuals.

We could not determine the specific causes for RPS errors and omissions. However,
SSA personnel can bypass RPS and post a Rep Payee to the payment record
(MBR/SSR), which might explain some of the differences. Inaccurate and missing RPS
information could cause SSA to use erroneous data in its evaluation of Rep Payees.




6
 The MBR is an SSA system of records containing information about OASDI beneficiaries. The SSR is
an SSA system of records containing SSI recipient information.
7
    Pub. L. No. 101-508 ,§ 5105(a)(2)(A)(i), codified at 42 U.S.C § (405(J)(2).


Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)                6
                                                         Conclusions and
                                                        Recommendations
Generally, FDCF met its responsibilities. However, FDCF needs to strengthen its
controls and procedures to reduce the potential for erroneous payments and loss of
beneficiary funds.

We recommend that SSA:

1. Direct FDCF to return funds to SSA for recipients who were ineligible for SSI
   because their resources exceeded the SSI limit.

2. Re-emphasize to FDCF procedures for notifying SSA when events occur that affect
   the eligibility of individuals in its care.

3. Direct FDCF to establish controls to determine when individuals no longer in its care
   have conserved funds and ensure these funds are returned to SSA in a timely
   manner.

4. Direct FDCF to return conserved funds of beneficiaries no longer in its care to the
   appropriate responsible party.

5. Direct FDCF to modify the Client Trust Fund checking account title to specifically
   identify the fiduciary relationship between it and the beneficiaries.

6. Correct the RPS information and implement controls or review procedures to prevent
   future occurrences.

AGENCY COMMENTS
SSA concurred with our recommendations. The Agency stated it is pleased with the
Office of the Inspector General’s overall conclusion that FDCF generally (1) had
effective safeguards over the receipt and disbursement of SSA and SSI benefits and
(2) ensured SSA and SSI benefit payments were used and accounted for in accordance
with SSA’s policies and procedures. SSA also stated it would address the areas
requiring corrective action or reminders when case-specific information is provided.

Although SSA concurred with Recommendation 5, it expressed concern that our
suggested bank account title precludes income other than SSA benefits from being
deposited into the account. The full text of SSA’s comments is included in Appendix B.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)     7
REP PAYEE COMMENTS
The Rep Payee responded it has strengthened its controls and procedures to reduce
the potential for erroneous payments and loss of beneficiary funds. Regarding
Recommendation 1, FDCF responded that, as of June 30, 2002, it had returned
$104,746.25 to SSA and requested appropriate waivers for those clients with balances
less than the overpayment amount. To address Recommendation 5, FDCF stated it
changed the bank account title to our suggested title. The full text of the Rep Payee’s
comments is included in Appendix C.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe SSA’s and the Rep Payee’s responses and planned actions adequately
address our recommendations.

Regarding SSA’s response to Recommendation 5, we do not believe our suggested title
precludes income other than SSA benefits from being deposited into the account. Our
intent was to ensure that FDCF modify the account title to specifically identify the
fiduciary relationship between it and the beneficiaries. As such, we continue to believe
our suggested title would assist FDIC in determining ownership interest in the account
in the event of a bank failure.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)      8
                                                                         Other Matter
SSA’s Retrieval of RPRs

To determine whether FDCF properly reported to SSA how benefits were used, we
requested that SSA provide the most recently completed RPRs for 58 of the Rep
Payee's beneficiaries, 25 from the random sample and 33 from the beneficiaries
identified with excess resources. SSA only provided 11 of the requested RPRs. We
determined the reported expense amounts appeared reasonable for these 11 RPRs,
even though we could not independently confirm that FDCF met its reporting
responsibilities.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)   9
                                                 Appendices




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                                                                                   Appendix A

Sampling Methodology and Results
Our audit covered the period May 1, 2000 to April 30, 2001. During this period, the
Florida Department of Children and Families – District 6 (FDCF) served as an
organizational representative payee for 451 individuals. From this population, we
selected a random sample of 50 individuals for substantive testing. However, where
applicable, we conducted additional field work to fully develop our findings and
recommendations. We describe our sampling methodology and results below.

Oversight of Social Security Administration Benefits

We selected a random sample of 50 individuals from the population of 451 individuals
described above. We did not attempt to statistically project our results because we
identified only one instance of lack of documentation for an immaterial expense amount.

Excess Resources Resulted in Supplemental Security Income Overpayments

We determined that 40 of the 320 Supplemental Security Income recipients in our
population had conserved funds in excess of $2,000 during the period May 1, 2000
through April 30, 2001, resulting in $135,717 in overpayments. We could not determine
whether FDCF reported the excess resources to the Social Security Administration
(SSA) because SSA could not provide us Representative Payee Reports that identified
excess conserved funds. However, FDCF should have notified SSA of the excess
resources and avoided the overpayments, since many of the instances occurred on a
month-by-month basis between annual report due dates.

FDCF Did Not Return Conserved Funds Timely

We reviewed the Client Trust Fund transactions for both the random sample and the
excess resources sample described above. We found five instances in which FDCF did
not return conserved funds timely to the appropriate individual.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                                                                                   Appendix B

Agency Comments




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                                       SOCIAL SECURITY
       MEMORANDUM

       Date: August 28, 2002
                                                                      Refer To:Bluke21322

       To:    Inspector General                                      Atlanta Regional Office


       From: Regional Commissioner
            Atlanta GA

       Subject: RESPONSE-Financial-Related Audit of Florida Department of Children
       and Families-District 6, and Organizational Representative Payee for the Social
       Security Administration (A-08-02-12007)

       This is an amended response. Please see changes made under the fifth
       recommendation.

       We appreciate the time and effort put forth in the audit conducted on the
       representative payee, Florida Department of Children and Families-District 6
       (FDCF). We have the following comments in reference to the draft report
       submitted for review:

       First recommendation-Concur-We agree that SSA should direct FDCF to return
       funds for 40 recipients who were ineligible for SSI because their resources
       exceeded the SSI limit. We do not anticipate a problem with the payee complying
       with this request (once the names, SSNs and amounts are provided), since funds
       are available.

       Second recommendation-Concur-SSA will re-emphasize the importance of
       timely reporting events affecting eligibility of individuals in their care. The local
       field office had a system in place where the financial office called directly to report
       changes as they were notified by the individual caseworkers. The financial office
       is dependent on the accuracy and timeliness of the caseworker’s reports. A
       reminder by FDCF for caseworkers appears appropriate.

       The FDCF financial office has been relocated since this audit was conducted.
       They are now under the jurisdiction of our Carrollwood field office. FDCF is
       currently under a major reorganization in the State of Florida. The agency is in
       the process of becoming privatized. We will make the necessary changes relative
       to SSA’s representative payee process when the conversion has taken place.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)           B-2
       Third recommendation-Concur-FDCF has no problem complying with reporting
       changes when individuals are no longer in their care. They are cooperative in
       returning the funds in a timely manner, once the caseworker has informed the
       financial office of the client’s removal from their custody. SSA will reinforce the
       importance of timely reporting at the caseworker level.

       Fourth recommendation-Concur- SSA will request return of conserved funds for
       5 individuals no longer in their care. We anticipate no problem with FDCF
       returning conserved funds of these beneficiaries, once the names, SSNs and
       amounts have been provided.

       Fifth recommendation-Concur-The current title of the bank account (Florida
       Dept of Children and Families District 6 Client Trust Fund) sufficiently designates
       FDCF’s fiduciary relationship between the agency and the beneficiaries. The
       payee has taken action to change the account as suggested by OIG in order to
       provide FDIC's preferred specificity to determine insurance amounts in the event
       of bank failure. The title now reads “FDCF Representative-Payee Trust of Social
       Security Benefits for Current Clients”.

       SSA rules and regulations require collective accounts be titled to show “the funds
       belong to the beneficiaries, not the payee”, and the account “is separate from the
       institution’s operating account”. FDCF’s collective account meets both
       requirements. However, we have a concern about the limitations resulting from
       the new title. Some beneficiaries have income other than SSA funds. The new
       title will preclude income other than SSA benefits from being deposited into the
       account. SSA does not require the payee to separate SSA benefits from other
       income belonging to a beneficiary. We propose that a more suitable title would
       be "FDCF Representative Payee for Social Security Beneficiaries". This would
       allow the payee to deposit funds other than SSA funds to the collective account.
       The payee is responsible for maintaining records to indicate how much of the
       collective account belongs to each beneficiary, as well as the source of the
       income.

       Sixth recommendation-Concur- The RPS system has been updated to show the
       accounts for the old zip code terminated and the account is now established for
       zip 33612, based on the relocation of the FDCF financial office. Once specific
       SSNs are identified, SSA can determine what additional RPS corrective actions
       are necessary and process required updates immediately.

       Other matter-SSA is aware of the difficulties encountered when attempting to
       retrieve representative payee accounting forms (referred to in this audit as
       RPRs). A pilot is scheduled to begin January 2003 where select organizations
       will test an electronic accounting method. If successful, this manner of
       accounting will provide ready access to completed reports. In the meantime, the
       Agency is scanning accounting reports. However, this does not eliminate the




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)    B-3
       transfer of forms from one location to another for resolution of questionable
       issues and storage. SSA continues to work to improve this process.

       We are pleased with OIG’s overall conclusion that FDCF generally 1) has
       effective safeguards over the receipt and disbursement of SSA and SSI benefits,
       and 2) ensured SSA and SSI benefits were used and accounted for in
       accordance with SSA’s policies and procedures. The areas requiring corrective
       action or reminders will be addressed when case specific information (e.g.,
       names, SSNs, amounts, periods, etc) is provided.

       The representative payee program is an ongoing priority. We are committed to
       continue improving our service to all beneficiaries and recipients. We are
       especially attentive to our most vulnerable citizens, those requiring the services of
       a representative payee.

       Questions concerning these comments should be directed to Barbara Luke at
       404-562-1322.

                                                     /s/
                                               Paul D. Barnes




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)    B-4
                                                                                   Appendix C

Representative Payee’s Comments




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)   C-2
AUG-26-2002 15:25                                                                  813+558 5854 P.04



                                                                  Conclusions and
                                                                 Recommendations
Generally, FDCF met its responsibilities. However, FDCF needs to strengthen its
controls and procedures to reduce the potential for erroneous payments and loss of
beneficiary funds.

We recommend that SSA:

1. Direct FDCF to return funds to SSA for recipients who were ineligible for SSI
   because their resources exceeded the SSI limit.

FDCF Response
SSI overpayments to clients exceeding their asset limit identified in the audit report have
been returned to the Social Security Administration. As of 6/30/2002, $104,746.25 was
returned to the Social Security Administration and appropriate waivers requested for
those clients with balances less than the overpayment amount (see attached list). The
remaining amount for six clients identified in the report by the SSA was returned to the
Social Security Administration and waivers requested for the balance of the
overpayment for those clients with balances less than the overpayment amount will also
be submitted to SSA.

One Client Trust Fund balance of $5,156 identified on your list as an overpayment was
returned to the client,      , on 1/2/02.         came into the Fiscal Office and
requested the balance of his trust fund be returned to him as he turned 18 years of age
and needed to get an apartment. He indicated that he had been to the local Social
Security Office to apply to withdraw his SSI and the Social Security Office sent him to
us. Armetha Williams, Finance & Accounting Director, called the Social Security Office
and spoke to Luis Perez to find out if we should release funds to        and was told to
release the funds to him, but to make sure the records were documented properly.

Three clients were still over the asset limit after returning the requested amount to SSA.
Therefore, we submitted additional amounts totaling $6,455.37 on these clients,
reducing their balances to the allowable asset limit. The total returned to Social
Security as of 8/16/02 is $142,172.62 (see attached list).

2. Re-emphasize to FDCF procedures for notifying SSA when events occur that
   affect the eligibility of individuals in its care.

FDCF Response
The Fiscal Office and the local Family Safety Program Office personnel received
training from the FDCF Family Safety-Central Office in February of this year on the
Master Trust Agreement which covers the responsibilities of a Representative Payee.



Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)                   C-3
Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)   C-4
Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)   C-5
                                                                                   Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Kimberly A. Byrd, Director, Southern Audit Division, (205) 801-1605

    Jeff Pounds, Deputy Director, Birmingham Field Office, (205) 801-1606

Staff Acknowledgments

In addition to the persons named above:

    Kathy L. Youngblood, Auditor-in-Charge

    Ellen Justice, Auditor

    Susan Phillips, Auditor

    Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-12007.




Financial-Related Audit of FDCF, an Organizational Rep Payee for SSA (A-08-02-12007)
                            DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1
Florida Department of Children and Families – District 6                      1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
